Federal Trade Commission

STATEMENT OF
DEBORAH PLATT MAJORAS

1

CHAIRMAN, FEDERAL TRADE COMMISSION,
BEFORE THE
ANTITRUST MODERNIZATION COMMISSION
MARCH 21, 2006

Thank you for inviting me to participate in this hearing. I appreciate the opportunity to
share my views on some of the important issues that the Antitrust Modernization Commission is
considering, and I am privileged to appear with my colleague and friend, Assistant Attorney
General, Tom Barnett.
As I understand it, the AMC is charged with determining whether the antitrust laws,
some of which are more than a century old, should be “modernized” so that they function
properly in our post-industrial economy. In my view, to the extent that any of the antitrust laws
need to be “modernized,” it is to bring them in line with modern antitrust thinking, not to change
them to fit particular industries.
Fundamentally, we do not need to make substantive changes to the primary federal
antitrust laws. Nearly 120 years of experience in the interpretation and enforcement of these
laws have established that the nation’s antitrust laws, subjected to rigorous judicial

1

The views expressed herein are my own and do not necessarily reflect the views of the Federal
Trade Commission or of any other individual Commissioner.

interpretation, as well as scrutiny by practioners and scholars, are highly effective in protecting
and preserving the nation’s free market system.
This does not mean that no changes are needed. Over time, the reach of the antitrust laws
has been narrowed by a large number of formal statutory exemptions and immunities. Most of
these “exceptions” to the antitrust laws may have had sound policy justifications when they were
enacted, but advancements in technology and the increased mobility of capital likely have
rendered many of them inconsistent with the core principles underlying our nation’s economic
policy. Technological changes and globalization also require the modernization of some of the
procedures that we use to apply our antitrust laws, particularly with respect to merger review, but
that should be done internally at the agencies. Finally, the spread of free markets and the
proliferation of competition authorities require that, as U.S. antitrust practioners, we seek to
improve our interaction and coordination with competition practioners throughout the world.
1.

Substantive Antitrust Laws

The broadly worded language in Sections 1 and 2 of the Sherman Act, as well as the
Clayton and Federal Trade Commission Acts, permits the courts, enforcement agencies, and
practitioners to apply the antitrust laws in ever-more-sophisticated and flexible ways, as legal
and economic learning evolve and our understanding of markets improves. Although I (like the
members of the AMC) may not agree with the decision in every antitrust case, questionable
decisions do not flow from deficiencies in the statutory language; rather, they reflect flaws in
legal and economic thinking. Moreover, history has shown that flawed decisions usually are
remedied through the corrective mechanisms of litigation and the steady intellectual
development of the courts, the agencies, practitioners, and academics.

2

Consider Section 7 of the Clayton Act and merger practice. The statute has proven
sufficiently flexible over the past half century to accommodate substantial changes in antitrust
merger jurisprudence. The courts and enforcement agencies historically relied almost
exclusively on market shares and other structural presumptions to determine whether a
transaction violated the antitrust laws. Although structural analysis retains a place in current
merger practice, a progression of judicial decisions, agency guidelines, and academic work has
changed merger practice, such that nearly all practitioners rely heavily on direct analyses of
competitive effects.
There has been a similar evolution in the treatment of efficiencies in merger analysis.
Throughout the 1960s, the Supreme Court held that efficiencies were not an appropriate factor to
consider in the antitrust review of mergers.2 Shortly thereafter, however, there began changes in
the thinking of the courts, the enforcement agencies, private practioners, and academics that
resulted in efficiencies assuming a central role in merger analysis.3

2

See FTC v. Procter & Gamble Co., 386 U.S. 568, 980 (1967) (“Possible economies cannot be
used as a defense to illegality. Congress was aware that some mergers which lessen competition
may also result in economies but it struck the balance in favor of protecting competition.”); U.S.
v. Philadelphia Nat'l Bank, 374 U.S. 321, 371 (1963) (“a merger the effect of which may be
substantially to lessen competition is not saved because, on some ultimate reckoning of social or
economic debits and credits, it may be deemed beneficial”) (citations and quotations omitted);
Brown Shoe Co. v. U.S., 370 U.S. 294, 344 (1962) (“We cannot fail to recognize Congress’
desire to promote competition, through the protection of viable, small, locally owned business.
Congress appreciated that occasional higher costs and prices might result from the maintenance
of fragmented industries and markets. It resolved these competing considerations in favor of
decentralization.”).
3

See FTC v. H.J. Heinz Co., 246 F.3d 708, 720 (D.C. Cir. 2001) (“the trend among lower courts
is to recognize the [efficiencies] defense”); FTC v. University Health, Inc., 938 F.2d 1206, 1222
(11th Cir. 1991) (“an efficiency defense to the government’s prima facie case in section 7
challenges is appropriate in certain circumstances.”); U.S. Dep't of Justice & Federal Trade
Comm'n, Horizontal Merger Guidelines § 4 (as amended Apr. 8, 1997).
3

Significantly, neither of these substantial changes in substantive merger law, nor shifts of
comparable magnitude in the treatment of vertical restraints, resulted from or generated statutory
amendments to the antitrust laws. Rather, they arose out of advances in the knowledge and
experience of the courts, practitioners, and scholars. The clear lesson is that the antitrust laws
are sufficiently flexible to support and sustain significant changes in their interpretation and
application, driven by litigation, changed enforcement policies, and new scholarship. The
Supreme Court made precisely this point in State Oil Co. v. Khan, where it held that vertical
maximum price fixing was not per se unlawful, overruling prior cases:
[T]he general presumption that legislative changes should be left to Congress has
less force with respect to the Sherman Act in light of the accepted view that
Congress expected the courts to give shape to the statute's broad mandate by
drawing on common-law tradition . . . [T]his Court has reconsidered its decisions
construing the Sherman Act when the theoretical underpinnings of those decisions
are called into serious question . . . Although we do not lightly assume that the
economic realities underlying earlier decisions have changed, or that earlier
judicial perceptions of those realities were in error, we have noted that different
sorts of agreements may amount to restraints of trade in varying times and
circumstances, and it would make no sense to create out of the single term
restraint of trade a chronologically schizoid statute, in which a rule of reason
evolves with new circumstances and new wisdom, but a line of per se illegality
remains forever fixed where it was.4
My inclination against substantive statutory changes extends to proposals to modify the
antitrust laws to address specific circumstances in particular sectors of the economy. A virtue of
the U.S. antitrust laws and legal system is that the courts and enforcement agencies generally
have applied the same criteria flexibly to an enormous array of industries. The result has been a
consistent competition policy that gives firms a reasonable degree of certainty and transparency.
Thus, I disagree with those who maintain that the antitrust laws are not well-suited for today’s

4

522 U.S. 3, 20-21 (1997) (citations and quotations omitted).
4

rapidly-changing high-technology industries, such as software and pharmaceuticals. Over the
past two decades, the antitrust community has developed and emphasized doctrines that enable
the sound application of our antitrust laws to even the fastest-moving sectors of our economy.
For example, advancement in theories relating to entry and the contestability of markets has
greatly informed agency and judicial decisions about the competitive effects of mergers and
other conduct in high-technology industries.
There is one significant caveat to my reluctance to make substantive changes to the
antitrust laws. The Commission should seriously consider recommending the repeal of the
Robinson-Patman Act, the overall purpose of which stands in contrast to the recognized goals of
modern antitrust law – the protection and enhancement of consumer welfare. Legal and
economic scholarship has persuasively demonstrated that, on balance, the statute is more harmful
than beneficial to consumers. Admittedly, recent cases such as Volvo Trucks North America,
Inc. v. Reeder-Simco GMC, Inc.5 demonstrate judicial appreciation of the need to interpret the
Act narrowly and consistently with the contemporary thrust of antitrust law – protecting
competition rather than competitors. But this interpretation lends support to the view that any
price discrimination that is anticompetitive in the sense that it harms consumers can be addressed
under the Sherman Act. Further, while the Volvo decision lent a welcome, modern antitrust
interpretation to the statute, it does not, in my view, sufficiently negate the costs of complying
with the Act or its potential to deter aggressive price-cutting that benefits consumers. And even
if Congress were ultimately to decide that the protection provided by the Act is still desirable, it
would be useful to have that decision made in the political process today. Finally, there is no

5

126 S. Ct. 860 (2006).
5

question that, as we work with new competition agencies around the globe and they look to the
United States as an example of an antitrust regime with consumer welfare as its centerpiece, the
Act stands out as representing contrasting policy goals and the protection of special interests –
something against which we repeatedly caution our counterparts.
2.

Statutory Exemptions

Even as the antitrust laws have evolved to make greater use of economics and to focus
primarily on consumer welfare, the number of statutory exemptions that shield competitors from
the antitrust laws remains high. Exemptions covering a substantial volume of commerce that are
decades old remain on the books. I recommend that the AMC evaluate some of these
exemptions and urge Congress and the President to consider their elimination.
Fundamentally, antitrust exemptions typically are inconsistent with a central premise of
U.S. economic policy – that vigorous competition in a free market, protected by the sound
application of the antitrust laws, is the best approach to promote consumer welfare and
efficiency. Thus, the potential for antitrust exemptions to harm consumers and the economy is
substantial. Indeed, standard economic theory predicts that unless certain conditions of market
failure are present, government limits on competition can produce higher prices, reduced output,
and less innovation. Moreover, this is not simply a matter of theory. The successful experience
of deregulation in various sectors of the American economy over the past three decades teaches
valuable lessons. Numerous studies show that the removal of government limits on competition
has resulted in greater economic efficiency and produced significant benefits for consumers.6

6

For surveys, see, e.g., Clifford Winston, Economic Deregulation: Days of Reckoning for
Microeconomists, 31 J. Econ. Lit. 1263 (1993); Clifford Winston, U.S. Industry Adjustment to
Economic Deregulation, 12:3 J. Econ. Perspectives 89, 98-102 (1998). See also Elizabeth E.
6

To be sure, circumstances that make restrictions on competition necessary to generate
substantial efficiencies may arise, and thus warrant a departure from a free market economic
model. It is important, however, that the Congress make certain that those conditions truly exist,
and that consumers rather than competitors will benefit from statutory exemptions from the
antitrust laws. If there is one thing that modern antitrust thinking recognizes, it is that markets
are not static. Yet, many exemptions are several decades old and likely were based on market or
regulatory justifications that probably no longer are valid. Innovations in communications and
transportation and other technologies have improved capital markets and increased the ability of
consumers and business customers to evaluate competitive alternatives without the assistance of
government regulation. Consequently, some exemptions that were needed to correct market
failures when enacted likely no longer serve consumers and the economy.
There also probably are less restrictive ways than antitrust immunity to allow efficiencyenhancing collaborations among competitors in some of the industries to which the exemptions
apply. Over the past three decades, antitrust analysis has been refined to incorporate economic
principles that allow for procompetitive joint ventures and other forms of cooperation. These
principles are reflected in antitrust case law and the guidelines promulgated by the antitrust
enforcement agencies. For example, the FTC/DOJ Statements of Antitrust Enforcement Policy in
Health Care7 provide that the agencies usually will not challenge forms of collaboration among
health care providers if the collaborative efforts are reasonably necessary to achieve efficiencies

Bailey, Price and Productivity Change Following Deregulation: The US Experience, 96 Econ. J.
1 (1986).
7

Available at http://www.ftc.gov/reports/hlth3s.htm.
7

that benefit consumers. The FTC/DOJ Antitrust Guidelines for Collaborations Among
Competitors8 similarly allow efficient forms of collaboration among competitors. Assuming that
there still are economically efficient forms of collaboration in some of the industries that
currently enjoy antitrust exemptions, it is likely that the antitrust laws are sufficiently flexible to
permit the collaboration without the need for formal antitrust immunity.
Finally, statutory exemptions from the U.S. antitrust laws can significantly hinder the
ability of the United States to promote sound competition policies abroad. The health of the
United States economy has become increasingly affected by the competition policies of other
countries. The United States has been and remains at the forefront in advocating for the
adoption of competition laws that reflect free market economic principles. Our ability to do so
effectively is reduced, however, when we do not practice what we preach. The United States’
competition policies and practices will be imitated only to the extent that they are worth
emulating. A critical review by the AMC of the U.S. antitrust exemptions will assist all of our
efforts to advocate for competition policies that promote vibrant consumer-oriented competition
both in the United States and abroad.
3.

Patent Reform

A comprehensive review of our antitrust laws requires cognizance of other statutory
regimes that regularly interact with the antitrust laws in ways that significantly affect
competition and consumers. Today, the patent system is the area of law that perhaps looms the
largest in its impact on the antitrust laws and competition policy. Patents are, of course, critical
to promoting investment and innovation. By preventing competing rival firms from free riding

8

Available at http://www.ftc.gov/os/2000/04/ftcdojguidelines.pdf.
8

on discoveries, patents allow firms to recoup their often substantial capital investments in
developing new products. Indeed, the patent and antitrust laws share the same goal of promoting
investment and competition, so it should come as no surprise that the two systems typically work
well together. Moreover, most patents do not yield market power that can impair competition,
and even when they do, if a patent is properly granted under appropriate standards, the incentives
and other advantages it provides typically outweigh possible market power concerns.
If improperly administered or misused, however, the patent system can harm innovation
and competition. Dubious patents can slow innovation by discouraging firms from conducting
research and development out of fear of patent infringement and can result in the payment of
unnecessary royalties, which are passed on to consumers.
The FTC’s recent attention to patent issues dates from a series of hearings in 2002 that
led to issuance of a major report in October 2003, “To Promote Innovation: The Proper Balance
of Competition and Patent Law and Policy.”9 One of the chief recommendations in the FTC
Report is that Congress enact legislation establishing procedures for post-grant review by the
Patent and Trademark Office. This recommendation seconded a proposal in the PTO’s own 21st
Century Strategic Plan. The Report reasons that some questionable patents inevitably will slip
through the examination system. Litigation weeds out invalid patents only slowly and at great
cost; challengers cannot seek declaratory judgments until imminently threatened with suit.
Collectively, these considerations suggest that some unwarranted patents will be issued and will
remain factors in the market for a considerable time, which may create unnecessary market
power and transaction costs and infect markets with risk, uncertainty, and distorted business

9

Available at http://www.ftc.gov/os/2003/10/innovationrpt.pdf.
9

planning. An improved post-grant opposition system could offer a quicker, less costly means for
resolving validity issues. The Report recommended a system that provides an early and effective
review beneficial to competition and rational business planning, while sheltering patentees from
harassment and impairment of legitimate patent rights. I urge the AMC to support this and other
recommendations for patent reform, which currently are under Congressional review.
4.

Merger Review Process

Modern advances in merger analysis, and advances in the technology of document and
data creation and retention, have led to increased costs and burdens in the agencies’ merger
review process. The process must be updated to meet new realities, as I recognized when I
recently introduced significant reforms to our process at the FTC. The needed reforms, however,
are best developed and implemented by the enforcement agencies, working in concert with the
bar and the business community, rather than through new legislation. To improve the merger
review process requires reforms that are durable and firm, but also that are sufficiently flexible to
support a wide variety of merger reviews across a wide range of industries. The agencies can
implement such flexible revisions readily through changes to their internal procedures. In
contrast, crafting the revisions through more static legislation presents substantial challenges
because changes in technology continually affect how the agencies review mergers.
Last month, I introduced a series of substantial reforms to the procedures that the FTC
uses to review all transactions that are reported under the Hart-Scott-Rodino Act.10 The reforms
are the product of study by our Merger Process Task Force, which was charged with conducting

10

Reforms to the Merger Review Process (Feb. 16, 2006), available at
http://www.ftc.gov/os/2006/02/mergerreviewprocess.pdf.
10

a top-to-bottom review of the FTC’s merger review process. The central purpose of the reforms
is to lower the costs of merger investigations for the FTC and the parties by reducing the volume
of materials that parties must preserve and produce to respond to a second request, while
preserving the FTC’s ability to conduct thorough merger investigations. Particularly significant
is that the reforms place substantial restrictions on the number of custodians that a party will be
required to search – one of the most important factors (if not the most important factor) in the
size and cost of second request productions. The limits on the number of custodians in second
request search groups constitutes the first time that a U.S. antitrust enforcement agency ever has
imposed such a limitation on itself.
The reforms contain four core presumptions:
1. a party will not be required to search the files of more than 35 of its employees when
responding to a second request, if the party complies with specified timing conditions;
2. a party will not be required to produce responsive documents that were created more
than two years prior to the issuance of the second request (a reduction from the current threeyear period);
3. a party will be required to preserve backup tapes for only two calender days identified
by FTC staff; and
4. a party will be entitled to produce a limited partial privilege log, rather than a “full”
log, for most of the custodians in the second request search group.11

11

The reforms also contain modifications to the instructions and the specifications of the second
request that are designed to reduce the burdens on the parties.
11

One thing made clear by the FTC’s internal review process was that meaningful reform
requires the participation of all components of the agency, not only the staff. Consequently, in
addition to implementing presumptive limitations on the size of second requests, the reforms
increase the responsibility of the senior management of the Bureaus of Competition and
Economics for ensuring that second requests do not impose undue burdens on the parties. For
example, the agency may require a party to search the files of more than 35 employees only if
the Bureau of Competition Director approves the larger search group. Parties are entitled to
meet or confer with the BC Director before the Director decides whether to authorize a larger
search group, and I highly encourage them to do so. Similarly, because requests for empirical
data also have contributed to higher costs, the reforms provide that a party will be entitled to
meet or confer with a Director or a Deputy Director from both the Bureau of Competition and
the Bureau of Economics if the party believes that the data requests are unnecessarily broad. We
also are requiring that an FTC lawyer with substantial experience participate in all second
request negotiations with the parties.
Moreover, as I stated when I released the reforms, they represent the start rather than the
end of the FTC’s efforts to improve the merger review process. For example, we will continue
to work to reduce the burden of requests for empirical data. The merger process reforms contain
provisions that should reduce the costs of data requests, but further work and experience are
needed to ensure that the FTC obtains the data it needs to analyze the competitive effects of
transactions, while minimizing the costs on the parties. I encourage all members of the antitrust
community to work with the FTC in this effort.

12

I also intend to devote significant resources to improving the technologies that the FTC
uses in merger investigations, particularly the hardware and software for processing and
reviewing electronic documents and data. Such improvements will benefit everyone – the
agencies, the parties, the bar, and, most important, U.S. consumers. Currently, FTC staff,
outside counsel, and the parties devote far too much time during many merger investigations to
resolving technical issues related to the format and methods used to produce electronic
documents. I hope to develop a set of more standardized options for parties to use when they
produce electronic documents in response to a second request, which will free up valuable
resources to further the agency’s core mission in merger analysis – determining whether the
transaction is likely substantially to harm consumers.
As I stated, despite the need for significant improvements to the merger review process, I
do not believe that formal statutory or regulatory changes are warranted. The reforms that I
issued last month address the primary sources of the growing costs of the merger review process
– the size of the search groups, the time period for which parties are required to produce
documents, the preservation of backup tapes, and the production of privilege logs. Further, I
urge the AMC to exercise significant caution about recommending modifications to the merger
review process that assign direct responsibility to other components of the government, such as
the courts. Experience shows that adding more procedural requirements to merger investigations
generally decreases the ability of the agencies and the parties to resolve matters expeditiously,
and increases the cost and overall burdens imposed on all involved.
5.

Two Antitrust Agencies

13

The question whether a “modern” U.S. antitrust regime should include two agencies with
largely overlapping jurisdiction has threaded through your mandate since the AMC’s formation.
And given that I have held senior positions in both agencies within the last five years, I often am
asked for my opinion on whether we really need two agencies and about the strengths and
weaknesses of each. My answer is unlikely to surprise you. There is no point in the AMC’s
considering how to create an antitrust regime from scratch and whether that means creating two
agencies, because you are not starting from scratch. You have before you two strong agencies,
with overlapping and also differing strengths. To change the current system would come at a
cost that would not be offset by countervailing benefits.
For example, the Federal Trade Commission was formed, in part, to study markets and
competition issues in depth, and that responsibility comprises a significant part of what we do.
Divorced from actual enforcement experience, however, that research and policy work would be
far less effective and informed. And to maximize consistency between the two agencies in civil
antitrust analysis, in recent years, the FTC has involved the Antitrust Division in its major policy
hearings and projects. Further, the FTC’s antitrust analysis benefits from input from the
consumer protection work we perform, and vice-versa.
In addition, one should not assume that combining all of the strengths and talents in one
large agency would be more efficient and therefore better. I am in no way convinced that bigger
is better in government agencies. Indeed, the relatively small size of the FTC enables us to react
relatively nimbly and responsively to market issues as they arise. Further, as a champion of the
idea that competition is a driver of greatness, I do not mind admitting that healthy competition

14

between the two agencies drives them toward greater effectiveness and responsiveness to the
needs of our public.
Conversely, I do not see public harm from having two agencies. We avoid duplication in
investigations, so that is not an issue. To the extent that some parties claim that their treatment
may vary as between agencies, I see no more variance between agencies than I see among
different staff even within the same agency – something that we are taking concrete steps to
minimize both within the FTC and between agencies. The clearance process works effectively in
more than 90% of matters, and we are actively working together to make the process faster and
smoother. Still, not only do I recognize the warts in the clearance process, but I disdain the
conflicts that develop in a handful of matters. As the AMC is well aware, the two agencies
endeavored to improve the clearance process in 2002, but were forced to abandon the reforms
under Congressional pressure. Should the AMC determine that improvements to the clearance
process are warranted, I would not object to the AMC’s making such a recommendation.
6.

International Competition Policy

Finally, no modern antitrust regime can be effective without a strong international
component. As champions of market-based economies, we are highly encouraged by the large
number of nations that slowly have been shifting away from government-based economies over
the last 15 years. Nonetheless, concern over the fact that multiple antitrust agencies around the
globe may make their own decisions about the same merger or conduct has prompted questions
about the desirability of additional procedures to promote greater comity in the application of
antitrust laws.

15

The FTC, together with the Antitrust Division, devotes substantial resources to
participating in international competition fora, maintaining strong bilateral relationships, and
promoting convergence with competition agencies throughout the world. U.S. consumers
strongly benefit from these efforts. Increasingly our investigations overlap with those of nonU.S. agencies. Maintaining reliable channels of communication and working to promote
comparable standards assist in avoiding substantive conflicts. In those very few circumstances
where we cannot avoid substantive conflict, the agencies still benefit from gaining a better
understanding of the areas of difference, and possibly avoid future conflict. The divergent
results reached by the Antitrust Division and the European Commission on the GE/Honeywell
transaction, for example, led our two jurisdictions to increase our communication and
understanding on the issues of conglomerate mergers and portfolio effects.
The U.S. agencies have incorporated comity into their Guidelines for International
Operations,12 and the United States’ bilateral antitrust cooperation agreements provide for the
application of comity and list the factors that the parties should take into account in applying it to
particular cases.13 The bilateral agreements also provide for “positive comity” mechanisms,
which enable a competition agency to request that another competition agency investigate and
enforce action with respect to anticompetitive conduct that is illegal in the requested jurisdiction

12

U.S. Department of Justice and FTC Antitrust Enforcement Guidelines for International
Operations § 3.2 (April 1995), available at
http://www.usdoj.gov/atr/public/guidelines/internat.htm.
13

E.g., US-EC agreement, Article VI,
http://www.ftc.gov/bc/international/docs/agree_eurocomm.pdf.
16

and also adversely affects the interests of the requesting jurisdiction. In addition, the U.S.
Supreme Court recently recognized and applied comity principles in its Empagran decision.14
Still, as the AMC has observed, there remains considerable interest in the United States
in determining whether it is possible to develop additional bilateral and multilateral procedures
to enhance international antitrust comity. While I am unaware of any international consensus on,
for example, an approach that would assign exclusive, or even primary, enforcement
responsibility to a jurisdiction most affected by the merger or conduct at issue, I am open to
considering new ways of implementing comity principles, consistent with my responsibility to
protect competition in the United States.
Currently, however, we are not without meaningful options to further the objectives of
comity, irrespective of the presence or lack of written agreements. Our job as enforcers is to
protect competition, and doing so effectively requires understanding and accounting for what
other jurisdictions do or may do. This is because any meaningful action taken by a competition
authority will impact the market in question. Thus, another agency’s regulatory intervention
should be considered as another market fact (just as a regulatory scheme or another U.S.
agency’s action is taken into account). Nowhere is this more important than in the imposition of
remedies, because a company’s divestiture or a company’s actions taken (or not taken but rather
forbidden) pursuant to an order entered outside of the United States can cause effects in the U.S.
market.

14

F. Hoffmann-La Roche Ltd. v. Empagran S.A., 542 U.S. 155 (2004).
17

To further reduce the likelihood of inconsistent results and unnecessarily redundant
investigations, the U.S. enforcement agencies, in cooperation with the bar, will continue actively
to engage our foreign counterparts on the major substantive antitrust issues. For example, next
week, the FTC and the Antitrust Division will co-host a program on merger investigations for
members of the International Competition Network. In two weeks, I will travel to Asia to
discuss, among other topics, the development of China’s competition law. This year, both the
FTC and the Antitrust Division will continue our active participation in the Organization for
Economic Cooperation and Development and ICN meetings and working groups.
Experience shows that these and related efforts bear fruit. Indeed, since the uranium and
other conflicts of a generation ago, policies designed to protect competitors at the expense of
consumers in many nations have been weakened, and even disappeared. State tolerance of
cartels also has declined. At the same time, it is clear that our active engagement with other
competition agencies has resulted in those agencies adopting policies that favor prudent restraint
in the application of their competition laws in circumstances where they did not always do so. In
particular, there has been a substantial increase in many foreign competition agencies’ use of
economic principles that focus competition law where it should be, on the welfare of consumers.
I look forward to working with the AMC and all members of the antitrust community to continue
our efforts to promote healthy convergence and comity among competition authorities.
Thank you again for the opportunity to appear before the AMC today. I look forward to
answering your questions.

-18

